<html>
<title> - SUBCOMMITTEE ON RURAL DEVELOPMENT, ENTREPRENEURSHIP AND TRADE MARKUP ON ENTREPRENEURIAL DEVELOPMENT PROGRAMS LEGISLATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   SUBCOMMITTEE ON RURAL DEVELOPMENT,
                  ENTREPRENEURSHIP AND TRADE MARKUP ON
                      ENTREPRENEURIAL DEVELOPMENT
                          PROGRAMS LEGISLATION

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 30, 2009

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 111-118
Available via the GPO Website: http://www.access.gpo.gov/congress/house



                   U.S. GOVERNMENT PRINTING OFFICE
48-126 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)

  
?

     Subcommittee on Rural Development, Entrepreneurship and Trade

                  HEATH SHULER, Pennsylvania, Chairman


MICHAEL MICHAUD, Maine               BLAINE LUETKEMEYER, Missouri, 
BOBBY BRIGHT, Alabama                Ranking
KATHY DAHLKEMPER, Pennsylvania       STEVE KING, Iowa
ANN KIRKPATRICK, Arizona             AARON SCHOCK, Illinois
YVETTE CLARKE, New York              GLENN THOMPSON, Pennsylvania

                                 (iii)

  




                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page

Shuler, Hon. Heath...............................................     1
Luetkemeyer, Hon. Blaine.........................................     2

Statements for the Record:
H.R. 1803, "Veterans Business Center Act of 2009"................     9
H.R. 1807, "Educating Entrepreneurs through Today's Technology 
  Act"...........................................................    19
H.R. 1834, "The Native American Business Development Enhancement 
  Act of 2009"...................................................    23
H.R. 1838, "Women's Business Center Act".........................    34
H.R. 1839, "SCORE Act"...........................................    43
H.R. 1842, "Expanding Entrepreneurship Act of 2009"..............    47
H.R. 1845, "The Small Business Development Center Modernization 
  Act of 2009"...................................................    52

                                  (v)

  


                   SUBCOMMITTEE ON RURAL DEVELPMENT,
                   ENTREPRENEURSHIP AND TRADE MARKUP
          ON ENTREPRENEURIAL DEVELOPMENT PROGRAMS LEGISLATION

                              ----------                              


                        Thursday, April 30, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360 Rayburn House Office Building, Hon. Heath Shuler 
[chairman of the Subcommittee] presiding.
    Present: Representatives Shuler, Bright, Dahlkemper, 
Kirkpatrick, Luetkemeyer and Thompson.
    Chairman Shuler. I am pleased this morning to call this 
hearing to order.
    We often talk about the role that small business plays in 
the creation of jobs and with good reason. Small firms generate 
between 60 and 80 percent of new positions. Following the 
recession in the mid-1990s, they created 3.8 million jobs. With 
unemployment expected to reach 9.8 percent in 2010, we could 
use that growth today.
    But unfortunately, many firms are struggling to make ends 
meet. Let's allow them to hire new workers. In the face of 
historic economic challenges, we should be investing in 
America's job creators. SBA's Entrepreneurial Development 
Programs, or ED, do just that. Of all the tools in the small 
business toolbox, these are some of the most critical. They 
help small firms do everything from draft business plans to 
access capital.
    Today we will reauthorize and enhance ED programs. The 
seven bills before us will not only modernize the program, but 
will make it work for our entrepreneurs.
    At this time I will yield to the Ranking Member for his 
opening statement.
    Mr. Luetkemeyer. Good morning, and thank you, Mr. Chairman, 
for the opportunity to mark up critical legislation aimed at 
making the Entrepreneurial Development Programs more effective 
and responsive to the needs of small businesses.
    At a time when small businesses are struggling to stay 
afloat, we must work to improve the usefulness of these 
initiatives. Rather than relying heavily on the government to 
spend our way out of this recession, we need to focus on 
insuring our small business, truly engines of job creation, are 
able to utilize all of the resources already available.
    As a small businessman myself, I am pleased to introduce a 
bill that will assist my many fellow small business owners and 
employees throughout my district in Missouri and all throughout 
the country.
    Two out of every three jobs created in the U.S. are created 
by small businesses, and like every recession before, small 
businesses will lead the way this time in economic growth, 
determination and innovation.
    H.R. 1842, the Expanding Entrepreneurship Act of 2009, 
makes several changes to the SBA's Entrepreneurial Development 
Programs. My bill aims to expand entrepreneurial job growth by 
pulling resources from duplicative government programs into a 
streamlined program to help emphasize job creation and 
retention. Specifically, this bill requires the SBA to develop 
a job creation strategy for 2009-2010, including the agency's 
intent for using existing programs to create and retain jobs 
throughout the United States.
    The SBA Administrator will also be required to collect 
measures related to the program performance and job creation, 
insuring that existing programs are being used effectively and 
duplicative government programs are done away with, and to 
insure easy access for entrepreneurs a database of providers of 
entrepreneurial development services will be established.
    As our country continues to address the economic problems 
hurting our families and businesses, we should be growing our 
small businesses instead of hindering them with unwanted tax 
increases.
    I know that the House Small Business Committee and this 
Subcommittee recognize how critical small business is to the 
economic health of this country. That is why I want to thank my 
colleagues for their commitment to sponsoring various pieces of 
legislation to improve programs that assist entrepreneurs with 
practical and technical skills needed to start and sustain a 
business.
    As Louis Celli, CEO of the Northeast Veterans Business 
Resource Center in Boston, put it at a recent Subcommittee 
hearing on this same subject, this Committee has exactly the 
right focus by wanting to interweave these programs together 
and really force everybody to play in the same sandbox, and by 
making entrepreneurial development programs more effective, we 
can be not only more responsive to small businesses, but we can 
also be better stewards of taxpayers' dollars.
    I am please to see my bill and my colleagues' similar piece 
of legislation working their way through the legislative 
process, and I look forward to seeing this bill become law.
    With that, I yield back, Mr. Chairman.
    Chairman Shuler. Thank you, sir.
    Are there any other members who wish to be recognized for 
the purposes of opening remarks?
    [No response.]
    Chairman Shuler. The first order of business we will 
consider, H.R. 1803.
    [The Bill H.R. 1803 is included in the appendix.]

    Chairman Shuler. That is the Veterans Business Center Act 
of 2009, introduced by Representative Nye.
    As of today, more than 130,000 troops have returned from 
Iraq and Afghanistan. Many of these men and women are now 
pursuing entrepreneurship. In fact, veterans already comprise 
14 percent of all self-employed Americans. Mr. Nye's 
legislation gives these men and women a chance to become 
business owners. It does this by establishing a new Veterans 
Business Center Program. This step will provide veterans with 
dedicated counseling and business training.
    Our soldiers have served our country well and deserve a 
fair shot at the American dream. For that reason this bill has 
the backing of both the American Legion and the VFW. I strongly 
support this legislation.
    Are there any members who wish to be recognized?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1803. The Clerk will report the title of the bill.
    The Clerk. To amend the Small Business Act to establish a 
Veterans Business Center Program and for other purposes.
    Chairman Shuler. I ask unanimous consent that the bill in 
its entirety be open for amendments at this point. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1803 to the full Committee. All in favor say 
aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    In terms of ED Programs, it is not enough to have the 
proper tools in place. We should be certain that small firms 
can access those tools. Representative Thompson's bill, H.R. 
1807, will make that happen.
    The Educating Entrepreneurs Through Today's Technology Act 
provides business owners with critical distance learning tools. 
These resources are particularly useful for businesses in rural 
areas which may not have the same range of services that other 
regions do.
    Through H.R. 1807 entrepreneurs in every corner of the 
country, from Appalachia to East L.A., can access the training 
and resources they need. I urge strong support of this 
legislation.
    I will recognize Mr. Thompson for his remarks.
    Mr. Thompson. Thank you, Mr. Chairman, Mr. Ranking Member.
    Thank you for holding this mark-up today to focus on the 
Entrepreneurial Development Programs that will strengthen SBA's 
capacity to continue to spur economic growth in hard to reach 
areas and underserved areas.
    For many entrepreneurs in my district in order to access 
resources provided by SPA and small business development 
centers, they have to drive long distances often through some 
pretty tough winters in Pennsylvania. In my rural district, we 
have learned to use our limited resources wisely, and during 
the hearing for the bills we have marked up today, I had the 
privilege of having a witness from my district, Ms. Donna 
Kilhoffer, the Program Manager for the Community Education 
Council of Elk and Cameron Counties in Pennsylvania, which 
provides affordable academic and professional development by 
partnering with institutions of higher learning, along with 
countless additional partnerships with regional businesses and 
industry.
    My bill, H.R. 1807, will assist distance learning programs 
like those serviced by the Community Education Council in order 
to enhance the potential of existing and soon to be 
entrepreneurs. H.R. 1807 will allow third parties the 
opportunity to provide high quality distance training for a 
modest competitive grants process administered by the SBA.
    I appreciate the work the Committee has done on this bill, 
and I would like to thank the bill's co-sponsors, Mr. 
Luetkemeyer, Mr. Connolly, and Mr. Pitts, and Mr. Chairman, I 
encourage my colleagues in the Subcommittee to support this 
smart government proposal.
    And with that I yield back the balance of my time.
    Chairman Shuler. Thank you, sir.
    Do any other members wish to be recognized on H.R. 1807?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1807.
    [The Bill H.R. 1807 is included in the appendix.]

    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To promote distance learning to potential and 
existing entrepreneurs and for other purposes.
    Chairman Shuler. I ask unanimous consent that the bill in 
its entirety be open for amendments at this time.
    Does any member seek to be recognized for the purpose of 
offering an amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1807 to the full Committee. All those in favor 
say aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    Entrepreneurship is a proven means of fighting poverty. It 
can also revitalize struggling communities across this country. 
Nowhere is it more important than within the native American 
populations.
    With that in mind, Representative Kirkpatrick has 
introduced H.R. 1834, the Native American Business Development 
Enhancement Act of 2009. Native American businesses are growing 
at an impressive rate of 84 percent. Clearly, we would like 
this trend to continue. For that to happen entrepreneurs must 
have access to critical counseling and technical assistant 
resources.
    H.R. 1834 contains provisions for both. I urge its support.
    I will now yield to the bill's sponsor, Representative 
Kirkpatrick, for her remarks.
    Ms. Kirkpatrick. Thank you, Mr. Chairman, for this 
opportunity to consider my bill, the Native American Business 
Development Enhancement Act.
    Our tribal communities make do with less even when times 
are good, and in these tough economic times, we can do more to 
help them build their communities and develop their local 
economies. This bill will accomplish that by expanding the 
assistance available to Indian, Alaska Native, and Native 
Hawaiian small business entrepreneurs under the Small Business 
Act by providing essential training and assistance and making 
it easier to get the capital they need to start up or grow 
their businesses.
    The measure will be a boon to our native populations, 
helping to grow their economies and creating new jobs.
    And I yield back.
    Chairman Shuler. Thank you, Ms. Kirkpatrick.
    Are there any other members who wish to be recognized on 
H.R. 1834?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1834.
    [The Bill H.R. 1834 is included in the appendix.]

    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To amend the Small Business Act to expand and 
improve the assistance provided to Indian tribe members, Alaska 
Natives, and Native Hawaiians, and for other purposes.
    Chairman Shuler. I ask unanimous consent that this bill in 
its entirety be open for amendments at this time.
    Does any member seek recognition for the purpose of 
offering an amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is 
reporting H.R. 1834 to the full Committee. All in favor say 
aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    The next piece of legislation that we will consider is H.R. 
1838, the Women's Business Center Act, introduced by 
Representative Fallin. Women's business centers go a long way 
to fostering entrepreneurship. H.R. 1834 will provide these 
organizations with needed stability.
    Through technical assistance and counseling, the bill will 
also renew the program's original mission, balancing low income 
communities. We often talk about moving women from welfare to 
work. Women business centers can move them from welfare to 
entrepreneurship.
    This legislation will build a program with a strong track 
record of encouraging entrepreneurship, and I urge its support.
    Is there any member that wishes to be recognized on H.R. 
1838?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1838.
    [The bill H.R. 1838 is included in the appendix.]

    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To amend the Small Business Act to modify 
certain provisions relating to women's business centers and for 
other purposes.
    Chairman Shuler. I ask unanimous consent that the bill in 
its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1838 to the full Committee. All those in favor 
say aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    Mentoring programs are vital resources not just for new 
entrepreneurs, but for experienced business owners looking to 
grow. The next piece of legislation recognizes that fact. H.R. 
1839, or the SCORE Act, modernizes networking and mentoring 
within the SCORE Program.
    The bill introduced by Representative Buchanan establishes 
benchmarks for measuring program efficiency. It does this by 
qualifying the success of entrepreneurs who participate in its 
initiative.
    It also establishes standards for mentoring. This bill will 
insure the highest quality of service for our small businesses 
and I strongly urge its support.
    Are there any members who wish to be recognized on H.R. 
1839?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1839.
    [The Bill H.R. 1839 is included in the appendix.]

    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To amend the Small Business Act to improve SCORE 
and for other purposes.
    Chairman Shuler. I ask unanimous consent that the bill in 
its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1839 to the full Committee. All those in favor 
say aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    The next bill we will consider is H.R. 1842, the Expanding 
Entrepreneurship Act of 2009, introduced by the Ranking Member 
Mr. Luetkemeyer. This legislation streamlines SBA's ED 
profiling by increasing coordination and planning. Even more 
importantly, it focuses on job creation.
    The economy may be struggling, but these programs can help 
new businesses get off the ground, allowing them to create jobs 
and spur growth.
    I urge strong support of this bill, and I commend the 
Ranking Member for his efforts of drafting this legislation.
    Are there any members who wish to be recognized on H.R. 
1842?
    [No response.]
    Chairman Shuler. The Committee now moves to consider the 
bill H.R. 1842.
    [The Bill H.R. 1842 is included in the appendix.]

    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To amend the Small Business Act to improve the 
Small Business Administration's Entrepreneurial Development 
Programs and for other purposes.
    Chairman Shuler. I ask unanimous consent that this bill in 
its entirety be open for amendments at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1842 to the full Committee. All those in favor 
say aye.
    [Chorus of ayes.]
    Chairman Shuler. Those oppose, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    As our last piece of business, we will consider H.R. 1845. 
This bill, the Small Business Development Center Modernization 
Act of 2009, has been introduced by Representative Schock. 
Entrepreneurial assistance is critical for small business 
tools. In fact, businesses that receive this kind of help are 
twice as likely to succeed.
    Though Mr. Schock's bill will reform the current SBDC 
Program, in doing so it will not only provide existing 
initiatives, but it will help firms address new challenges.
    While focused on these types of concerns, the legislation 
provides much needed tools for entrepreneurs. It helps them 
remain competitive in today's market. It also helps them adapt 
to the challenges of the economic climate today.
    I urge the members' support of this legislation. Is there 
any member who wishes to be recognized on H.R. 1845?
    [No response.]
    Chairman Shuler. The Committee will now move to consider 
H.R. 1845.[The Bill H.R. 1845 is included in the appendix.]
    Chairman Shuler. The Clerk will report the title of the 
bill.
    The Clerk. To amend the Small Business Act to modernize 
Small Business Development Centers and for other purposes.
    Chairman Shuler. I ask unanimous consent that the bill in 
its entirety be open for amendments at this time. Does any 
member wish to seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairman Shuler. Seeing no amendments, the question is on 
reporting H.R. 1849 to the full Committee. All those in favor 
say aye.
    [Chorus of ayes.]
    Chairman Shuler. Those opposed, no.
    [No response.]
    Chairman Shuler. The ayes have it. The bill is adopted and 
reported to the full Committee.
    This concludes the Subcommittee's business for today. I ask 
unanimous consent that the Subcommittee is authorized to 
correct section numbers, punctuation, cross-references, and 
make necessary technical and conforming corrections on the 
bills considered today.
    Without objection, so ordered.
    This mark-up is adjourned.
    [Whereupon, 10:28 a.m., the Subcommittee meeting was 
concluded.]

[GRAPHIC] [TIFF OMITTED] T8126.016

[GRAPHIC] [TIFF OMITTED] T8126.017

[GRAPHIC] [TIFF OMITTED] T8126.018

[GRAPHIC] [TIFF OMITTED] T8126.019

[GRAPHIC] [TIFF OMITTED] T8126.020

[GRAPHIC] [TIFF OMITTED] T8126.021

[GRAPHIC] [TIFF OMITTED] T8126.022

[GRAPHIC] [TIFF OMITTED] T8126.023

[GRAPHIC] [TIFF OMITTED] T8126.024

[GRAPHIC] [TIFF OMITTED] T8126.025

[GRAPHIC] [TIFF OMITTED] T8126.026

[GRAPHIC] [TIFF OMITTED] T8126.027

[GRAPHIC] [TIFF OMITTED] T8126.028

[GRAPHIC] [TIFF OMITTED] T8126.029

[GRAPHIC] [TIFF OMITTED] T8126.030

[GRAPHIC] [TIFF OMITTED] T8126.031

[GRAPHIC] [TIFF OMITTED] T8126.032

[GRAPHIC] [TIFF OMITTED] T8126.033

[GRAPHIC] [TIFF OMITTED] T8126.034

[GRAPHIC] [TIFF OMITTED] T8126.035

[GRAPHIC] [TIFF OMITTED] T8126.036

[GRAPHIC] [TIFF OMITTED] T8126.037

[GRAPHIC] [TIFF OMITTED] T8126.038

[GRAPHIC] [TIFF OMITTED] T8126.039

[GRAPHIC] [TIFF OMITTED] T8126.040

[GRAPHIC] [TIFF OMITTED] T8126.041

[GRAPHIC] [TIFF OMITTED] T8126.042

[GRAPHIC] [TIFF OMITTED] T8126.043

[GRAPHIC] [TIFF OMITTED] T8126.044

[GRAPHIC] [TIFF OMITTED] T8126.045

[GRAPHIC] [TIFF OMITTED] T8126.046

[GRAPHIC] [TIFF OMITTED] T8126.047

[GRAPHIC] [TIFF OMITTED] T8126.048

[GRAPHIC] [TIFF OMITTED] T8126.049

[GRAPHIC] [TIFF OMITTED] T8126.050

[GRAPHIC] [TIFF OMITTED] T8126.051

[GRAPHIC] [TIFF OMITTED] T8126.052

[GRAPHIC] [TIFF OMITTED] T8126.053

[GRAPHIC] [TIFF OMITTED] T8126.054

[GRAPHIC] [TIFF OMITTED] T8126.055

[GRAPHIC] [TIFF OMITTED] T8126.056

[GRAPHIC] [TIFF OMITTED] T8126.057

[GRAPHIC] [TIFF OMITTED] T8126.058

[GRAPHIC] [TIFF OMITTED] T8126.059

[GRAPHIC] [TIFF OMITTED] T8126.060

[GRAPHIC] [TIFF OMITTED] T8126.061

[GRAPHIC] [TIFF OMITTED] T8126.062

[GRAPHIC] [TIFF OMITTED] T8126.063

[GRAPHIC] [TIFF OMITTED] T8126.064

[GRAPHIC] [TIFF OMITTED] T8126.065

[GRAPHIC] [TIFF OMITTED] T8126.066

[GRAPHIC] [TIFF OMITTED] T8126.067

[GRAPHIC] [TIFF OMITTED] T8126.068

[GRAPHIC] [TIFF OMITTED] T8126.069

[GRAPHIC] [TIFF OMITTED] T8126.070


</pre></body></html>
